   February 24, 2006




Information Technology Management

Select Controls for the Information
Security of the Ground-Based Midcourse
Defense Communications Network
(D-2006-053)




            Department of Defense
           Office of Inspector General
Quality                Integrity     Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CIO                   Chief Information Officer
GAO                   Government Accountability Office
GCN                   GMD Communications Network
GMD                   Ground-Based Midcourse Defense
IA                    Information Assurance
MAC                   Mission Assurance Category
MDA                   Missile Defense Agency
OMB                   Office of Management and Budget
POA&M                 Plan of Action and Milestones
SSAA                  System Security Authorization Agreement
                              INSPECTOR GENERAL
                            DEPARTMENTOFDEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON. VIRGINIA 22202-4704




                                                                           February 24,2006
MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY
               CHIEF INFORMATION OFFICER, MISSILE
                 DEFENSE AGENCY
SmJECT: Report on Select Controls for the Information Security of the
        Ground-Based Midcourse Defense Communications Network (Report
        No. D-2006-053)


      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The comments of the Deputy Director, Missile Defense Agency, responding for the
Director, Missile Defense Agency, were partially responsive or nonresponsive to some of
the recommendations. As a result of manaeement comments.  ~~.we revised
                                                                  ~~~   ~-~~

Recommendation 1. T'hcrcforc, we rcqucs;that the ~ircctor,Missile Dcfcnse Agency,
provide additional comments on those recomrncndations by March 23,2006.

       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudRLS@dodig.osd.mil. Copies of the management comments
must contain the actual signature of the authorizing official. We cannot accept the
/ Siened / svmbol in olace of the actual sienature. If vou arranee to send classified
coknents ~lectroni~ally,   they must be s&t over the SECRET h e m e t Protocol Routa
Network (SIPRNET).
         We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Kathryn M. Truex at (703) 604-8966 (DSN 664-8966) or Ms. Karen J. Lamar at (703)
604-9005 (DSN 664-9005). See Appendix C for the report distribution. The team members
are listed inside the back cover.
                                  By direction of the Deputy Inspector General for Auditing:


                                   u-
                                    i3.
                                        7,




                                                         m
                                             Wanda A. Scott
                                       Assistant Inspector General
                                      Readiness and Logistic Support
                    Department of Defense Office of Inspector General
  Report No. D-2006-053                                                     February 24, 2006
     (Project No. D2005-D000AL-0152)

       Select Controls for the Information Security of the Ground-Based
                 Midcourse Defense Communications Network

                                    Executive Summary

Who Should Read This Report and Why? The Director and Chief Information Officer, Missile
Defense Agency, and other Missile Defense Agency managers responsible for making operational
and information assurance-related decisions pertaining to the Ground-Based Midcourse Defense
Communications Network should read this report to reduce the risk of interruption, misuse,
modification, and unauthorized access to information in the system. Additionally, all DoD
Component Chief Information Officers with oversight responsibilities for contractor-owned or
operated systems should read this report.

Background. This report is one in a series on operational control reviews at the Missile Defense
Agency. In May 2003, the President directed DoD to field an initial set of missile defense
capabilities and begin operating them in 2004 and 2005. In recent years, more countries are
developing sophisticated missiles that are capable of reaching the United States. Ballistic
missile defense is a challenging mission because of the speed and altitude of a ballistic
missile. In late 2004, the United States fielded the initial Ballistic Missile Defense System
that can be used for limited defense operations. The Ballistic Missile Defense System is
comprised of various elements to include the Ground-Based Midcourse Defense system,
which is contractor-owned and operated. The system includes infrastructure, sensors, radars,
and interceptors, which are connected by the Ground-Based Midcourse Defense
Communications Network. This network provides connectivity for all system components to
transfer and process information to operators performing engagement activities.

DoD Component Heads are required to establish minimum information assurance controls
outlined in DoD Instruction 8500.2, “Information Assurance (IA) Implementation,” February 6,
2003, for all systems in order to protect the integrity, availability, and confidentiality of the
information in that system. The Missile Defense Agency Chief Information Officer established
the Ground-Based Midcourse Defense Communications Network’s baseline of required
information assurance controls as the most stringent for integrity, availability, and
confidentiality.

DoD Instruction 5200.40, “DoD Information Technology Security Certification and
Accreditation Process (DITSCAP),” December 30, 1997, requires that DoD Component and
DoD contractor information technology systems and networks undergo a formal certification and
accreditation process to authorize systems to operate. During the DoD Information Technology
Security Certification and Accreditation Process, the information assurance controls of DoD
Instruction 8500.2, “Information Assurance (IA) Implementation,” February 6, 2003, are
implemented. The certification and accreditation process culminates in a decision to grant a
system an authority to operate, an interim authority to operate, or no authority to operate.

Results. Missile Defense Agency officials had not prepared a System Security Authorization
Agreement for the Ground-Based Midcourse Defense Communications Network. Additionally,


                                                 i
available security documentation did not properly reflect current operations of the network.
Missile Defense Agency officials also had not fully implemented information assurance
controls required to protect the integrity, availability, and confidentiality of information in the
Ground-Based Midcourse Defense Communications Network. Specifically, the Missile
Defense Agency program office for the Ground-Based Midcourse Defense Communications
Network did not provide information assurance awareness training to prior to being granted
access, conduct reviews for unauthorized access, properly implement or document user access
procedures and controls, and prepare contingency and incident response plans. Further, a
Plan of Action and Milestones designed to assist managers in correcting security weaknesses
had not been prepared. As a result, Missile Defense Agency officials may not be able to
reduce the risk and extent of harm resulting from misuse or unauthorized access to or
modification of information of the Ground-Based Midcourse Defense Communications
Network and ensure the continuity of the network in the event of a disruption. Additionally,
the Missile Defense Agency Chief Information Officer and the Designated Approving Authority
may not be able to make appropriate management-level decisions relating to the security of the
Ground-Based Midcourse Defense Communications Network if required key documents are not
prepared, updated, or tested. See the Finding section of the report for the detailed
recommendations.
Management Comments. The comments of the Deputy Director, Missile Defense Agency,
responding for the Director, Missile Defense Agency, were partially responsive or
nonresponsive to some of the recommendations. See the Finding section of the report for a
discussion of management comments on the recommendations and the Management Comments
section of the report for the complete text of the comments.

We request that the Director, Missile Defense Agency comment on this report by March 24,
2006.




                                                 ii
Table of Contents

Executive Summary                                                         i


Background                                                                1


Objectives                                                                2


Finding
     Ground-Based Midcourse Defense Communications Network Information
        Security Status                                                  4

Appendixes
     A. Scope and Methodology                                            16
     B. Prior Coverage                                                   17
     C. Report Distribution                                              18

Management Comments
     Missile Defense Agency                                              21
Background

            In May 2003, the President directed DoD to field an initial set of missile defense
            capabilities and begin operating them in 2004 and 2005. The mission of the
            Missile Defense Agency (MDA) is to develop an integrated Ballistic Missile Defense
            System to defend the United States, its deployed forces, and allies from ballistic
            missiles. In recent years, more countries are developing sophisticated missiles that
            are capable of reaching the United States. Ballistic missile defense is a challenging
            mission because of the speed and altitude of a ballistic missile.

            In late 2004, the United States fielded the initial Ballistic Missile Defense System
            that can be used for limited defense operations. The Ballistic Missile Defense
            System is comprised of various elements to include the Ground-Based Midcourse
            Defense (GMD) system. The GMD system consists of the following components:

                    •    GMD Communications Network (GCN);

                    •    Command Launch Equipment, Fire Control Communications, Ground
                         Based Support, and In-Flight Interceptor Communications Systems;
                         and

                    •    sensors, radars, and interceptors.

            The GCN provides connectivity for all GMD components in order to transfer and
            process information to operators performing engagement activities. The MDA
            Program Office for GMD is responsible for the information assurance (IA) and the
            certification and accreditation of all components of the GMD system.

            GMD Communications Network. The GCN, a contractor-owned and operated
            system, has two main components—encrypted and unencrypted equipment—both
            comprised of a communications and a monitoring system. The communications
            systems receive information from the various sensors and radars and transmits that
            information to the various components of GMD. The monitoring systems report on
            the health and status of the communications systems. The GCN has been in
            development since January 2001.

            DoD Instruction 8500.2, “Information Assurance (IA) Implementation,” February 6,
            2003, requires that all DoD information systems maintain an appropriate level of IA
            by establishing a baseline of controls for integrity, availability, and confidentiality.
            The DoD Component Head is required to designate a Mission Assurance
            Category (MAC)1 level for all systems in order to determine those minimum
            IA controls identified in DoD Instruction 8500.2 to protect the integrity and
            availability of the information in that system. The MDA Chief Information Officer
            (CIO) designated the GCN as a MAC I system in the DoD Information Technology


1
    A MAC level is identified for all DoD information systems and reflects the importance of information
    relative to the achievement of DoD goals and objectives, particularly the warfighters’ combat mission.
    MAC I systems are those that require the most stringent DoD Instruction 8500.2 controls for integrity and
    availability.



                                                       1
            Registry.2 For MAC I systems, the IA controls for integrity and availability are
            always the most stringent. The confidentiality level for MAC I systems is determined
            by whether the system processes classified, sensitive, or public information. MDA
            Policy Memorandum, “Designated Approving Authority (DAA) Accreditation
            Directions to Ballistic Missile Defense System (BMDS) Elements for Mission
            Automated Information Systems,” April 13, 2004, mandated that Ballistic Missile
            Defense System mission systems and elements implement the classified
            IA controls identified in DoD Instruction 8500.2. The baseline of IA controls for
            the GCN is the most stringent for integrity, availability, and confidentiality.

            Certification and Accreditation Process. DoD Instruction 5200.40, “DoD
            Information Technology Security Certification and Accreditation Process
            (DITSCAP),” December 30, 1997, requires that DoD Component and DoD
            contractor information technology systems and networks establish a formal
            certification and accreditation process to authorize systems to operate.
            DoD 8510.1-M, “Department of Defense Information Technology Security
            Certification and Accreditation Process,” July 31, 2000, standardizes the certification
            and accreditation process throughout DoD. During the DoD Information Technology
            Security Certification and Accreditation Process, the IA controls of DoD
            Instruction 8500.2 are implemented. A Systems Security Authorization Agreement
            (SSAA) documents the actions, decisions, IA requirements, and the level of effort
            needed to certify and accredit any information system. The DoD Information
            Technology Security Certification and Accreditation Process is composed of
            activities and tasks designed to protect information systems and networks from loss,
            alteration of, denial of access to, or unauthorized access to system information. The
            certification and accreditation process culminates in a decision to grant a system an
            authority to operate, an interim authority to operate,3 or no authority to operate. In
            March 2005, the MDA Designated Approving Authority granted the GCN a six
            month interim authority to operate and, in August 2005, renewed that interim
            authority to operate for an additional six months.


Objectives

            The overall audit objective was to determine whether information security operational
            controls operate effectively and provide an appropriate level of IA. Specifically, the
            audit assessed the adequacy and effectiveness of the security program, access
            controls, and contingency and continuity of operations plans. We also evaluated the
            management control program related to the objective. This report addresses the GCN
            and is one in a series on information security reviews at MDA. See Appendix A for a
            discussion of the audit scope and methodology.



2
    The Information Technology Registry is the official database for the DoD-wide inventory of mission
     critical, mission essential, and select mission support systems. That Registry contains security status for
     such things as accreditation, risk management, security, incident response, contingency plans, and
     security testing.
3
    An interim authority to operate is issued when a system does not meet the system security requirements
    but the mission criticality mandates that it become operational.



                                                         2
Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system
    of management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We performed tests of
    the Management Control Program by performing the procedures used to accomplish
    our objective. The objective was to assess the adequacy and effectiveness of the
    security program, access controls, and contingency and continuity of operations
    plans. By performing the procedures to review those controls, in effect, we tested the
    Management Control Program for those select operational controls.

    Adequacy of Management Controls. We found weaknesses in the Management
    Control Program for the security program, access controls, and contingency and
    continuity of operations plans. For specific results of those weaknesses, see the
    Finding section of the report. The recommendations, if implemented, will correct the
    identified weaknesses. A copy of the report will be provided to the senior official
    responsible for management controls at MDA.

    Adequacy of Management’s Self-Evaluation. We found weaknesses in
    management’s self-evaluation processes for implementing IA controls for the
    GCN. MDA reviewed the adequacy of management controls by performing
    financial, operational, compliance, and program reviews and audits; however,
    they performed no IA reviews of their information systems. Additionally, the
    MDA CIO did not identify any reportable material weaknesses and assured in his
    management control assessment that information technology was adequately
    protected.




                                          3
            Ground-Based Midcourse Defense
            Communications Network Information
            Security Status
            MDA officials had not prepared an SSAA for the GCN. Additionally,
            available security documentation did not properly reflect current operations
            of the network. MDA officials also had not fully implemented select
            IA controls required to protect the integrity, availability, and confidentiality
            of GCN information. Specifically, the MDA program office for the GCN did
            not:

                    •   provide IA awareness training to GCN users prior to being
                        granted access to the GCN;

                    •   conduct reviews for unauthorized access;

                    •   properly implement or document user access procedures and
                        controls; and

                    •   prepare contingency and incident response plans.

            Further, a Plan of Action and Milestones (POA&M) designed to assist
            managers in correcting security weaknesses was not prepared. MDA
            officials did not prepare required documents and implement IA controls
            because they did not conduct adequate oversight of the GCN IA program,
            update the development contract to adhere to DoD policy, or assign IA roles
            and responsibilities for the GCN development process. As a result, MDA
            officials may not be able to reduce the risk and magnitude of harm resulting
            from misuse or unauthorized access to or modification of information of the
            GCN and ensure the continuity of the system in the event of a disruption.
            Additionally, the MDA CIO and the Designated Approving Authority may
            not be able to make appropriate management-level decisions relating to the
            security of the GCN if required key documents are not prepared, updated, or
            tested.


System Security Authorization Agreement

     MDA officials had not prepared an SSAA for the GCN. Additionally, available
     security documentation did not properly reflect current operations of the network.

     System Security Authorization Agreement. The DoD Information Technology
     Security Certification and Accreditation Process uses a single document approach—
     the SSAA—for the certification and accreditation process. The SSAA is designed to
     fulfill the requirements of Office of Management and Budget (OMB) Circular A-130,
     “Management of Federal Information Resources,” November 2000, for a security
     plan and to meet all Federal, DoD, and MDA requirements for documentation of
     system and network certification and accreditation. The SSAA is used throughout the



                                           4
           DoD Information Technology Security Certification and Accreditation Process to
           guide actions, document decisions, specify IA requirements, document certification
           tailoring and level of effort, identify possible solutions, and maintain operational
           systems security. The DoD Information Technology Security Certification and
           Accreditation Process applies to all systems requiring certification and accreditation
           throughout their life cycle. The process is designed to adapt to any type of
           information system and any computing environment and mission. Contractor
           officials prepared, and MDA officials authorized, four individual SSAAs for the
           various components of GCN and granted interim authorities to operate based on each
           of those SSAAs. Contractor officials stated that they no longer grant multiple interim
           authorities to operate based upon the components of GCN, but on GCN as a whole.
           Therefore, because GCN was granted one interim authority to operate, which is the
           result of the DoD Information Technology Security Certification and Accreditation
           Process, it requires an SSAA. However, officials did not prepare a GCN SSAA.
           MDA officials should prepare an overall SSAA for GCN because the SSAA contains
           the documentation to support the interim authority to operate and applies to all
           systems that require certification and accreditation.

           Available Security Documentation. MDA officials did not prepare and update the
           various GCN component SSAAs to adequately reflect the current operating system
           mission, environment, and architecture. Specifically, contractor officials had not
           prepared key documents required by OMB Circular A-130 to support the individual
           GCN component SSAAs and did not report valid or current information in those
           SSAAs. For instance, contingency plans and system rules of behavior had not been
           prepared to assist users. Additionally, the SSAA for the unencrypted
           communications system stated that an individual password was required; however,
           the developing contractor used group passwords. The SSAAs for the unencrypted
           equipment also identified a security concept4 for the unencrypted equipment;
           however, that concept covered encrypted equipment instead of unencrypted
           equipment. On the other hand, SSAAs for the encrypted equipment did not contain
           any security concept. This oversight occurred because the encrypted equipment and
           the unencrypted equipment were developed by two separate contractors, who were
           not following a common set of procedures for preparing documentation.5

           User Representative. The key to the DoD Information Technology Security
           Certification and Accreditation Process is the agreement between the designated
           approving authority, the certifying authority, the program manager, and the user
           representative. Those individuals resolve schedule, budget, security, functionality,
           and performance issues. A user representative is responsible for ensuring that the
           system meets the user’s operational need, meets the availability and integrity
           requirements, and has a realistic security policy that can be maintained in the
           operational environment. The GMD Deputy Designated Approving Authority stated
           that the Joint Functional Component Command was the user of the GCN; however,
           the GCN component SSAAs identified U.S. Northern Command as the user
           representative. However, no user representative had endorsed those SSAAs to ensure

4
    The purpose of the security concept was to provide a description of the GCN security requirements and
     resources needed to meet those requirements.
5
    Boeing is the prime contractor for the development of the GMD system, which includes the GCN.
    Northrop Grumman is a sub-contractor to Boeing and develops all the unencrypted equipment for the
    GMD system, which includes the unencrypted equipment for the GCN.



                                                       5
     that the needs of the user were being met. According to the GMD Deputy Designated
     Approving Authority, the GCN has multiple users; therefore, ongoing efforts are
     trying to determine who the user representative should be. MDA officials should
     identify the user representative to ensure that the GCN is being developed to meet the
     operational needs of that user.


Information Assurance Controls

     MDA officials had not fully implemented select IA controls required to protect
     the integrity, availability, and confidentiality of the GCN information. The GCN, a
     contractor-owned and operated system, is reported in the Information Technology
     Registry as a MAC I system. According to MDA Policy Memorandum, “Mission
     Assurance Category (MAC) Levels for Missile Defense Agency (MDA) Systems
     and Networks,” August 20, 2004, all MDA systems are required to be accredited
     in accordance with DoD Instruction 8500.2. However, GMD government
     program and contractor officials did not develop the GCN to meet DoD
     Instruction 8500.2 requirements. Rather, they developed the GCN to conform to
     the standards of DoD 5200.28-STD, “Department of Defense Trusted Computer
     System Evaluation Criteria,” December 26, 1985, which does not include most of
     the IA controls required in DoD Instruction 8500.2. Further, based on a
     cross-walk provided by the independent assessment team contracted to perform
     the independent verification and validation function for GMD, the IA controls
     actually being implemented were those from DoD Directive 5200.28, “Security
     Requirements for Automated Information Systems (AISs),” March 21, 1988. In
     any event, the IA controls required by DoD 5200.28-STD and DoD
     Directive 5200.28 were outdated and did not comply with the current IA controls
     identified in DoD Instruction 8500.2, such as IA awareness training, intrusion
     detection, real-time monitoring, and contingency planning. MDA officials should
     immediately implement all IA controls of DoD Instruction 8500.2 for the GMD
     element.
     Information Assurance Awareness Training. DoD Directive 8570.1,
     “Information Assurance Training, Certification, and Workforce Management,”
     August 15, 2004, requires that all authorized users, including contractors, receive
     IA awareness training as a condition for access to any DoD system and,
     thereafter, complete annual IA refresher training. Contractor personnel who had
     access to the GCN did not receive IA awareness training prior to being granted
     access to the system. In April 2005, MDA officials implemented the IA awareness
     training requirement for the first time; by October 2005, all GCN contractor
     personnel had completed the training. MDA program officials for GMD stated that
     they had not required the IA awareness training until MDA implemented the
     IA awareness training requirement. MDA officials should continue to promote
     awareness and provide recurring training to all employees and contractors so that all
     government and contractor personnel are aware of their security roles and
     responsibilities and understand current government policies and procedures, security
     risks, and the potential threats to MDA systems.

     User Access Controls. MDA and contractor officials did not conduct adequate
     reviews for potential acts of unauthorized access into the GCN, implement consistent



                                           6
password procedures, or implement procedures to ensure that access was granted to
only those users with the required clearance and who had received IA awareness
training.

        Unauthorized Access Review. MDA and contractor officials did not
conduct audit log reviews for the unencrypted communications and monitoring
systems of the GCN. MDA and contracting officials stated that audit log reviews
were only required for the encrypted communications and monitoring systems and
that those reviews were performed manually. Contractor officials also stated that
manual audit log reviews were cumbersome and time-consuming and that those
reviews did not guarantee the detection of all relevant security violations. However,
DoD Instruction 8500.2 requires the deployment of an automated, continuous on-
line monitoring and audit trail capability to immediately alert personnel to any
unusual or inappropriate activity with potential IA implications. Contractor
officials stated that they did not implement real-time audit log monitoring
capability on the GCN system because it was not in the contract. Both
government and contractor officials acknowledged that automated audit log
monitoring systems would be beneficial to the GCN system because predefined
events could be established to identify security trends and patterns of
unauthorized access. MDA and contractor officials should integrate an automated
monitoring capability into the GCN in order to alert the appropriate personnel of a
security incident for the GCN system. MDA and contractor officials should also
conduct weekly manual reviews of the audit logs for all GCN components until
such time that an automated monitoring capability is installed into the system.

        User Account Management. DoD Instruction 8500.2 requires that users
gain access to DoD information systems with the use of an individual identifier
and password. Officials did not require users to have an individual password to
access the unencrypted communications system of the GCN. Contractor officials
explained that based on the configuration of the GCN, an individual password
was not necessary to protect against unauthorized use. Specifically, a group
password was used to authenticate a user of the unencrypted communications
system. However, access to that communications system could only be gained
via the unencrypted monitoring system, which required an individual password to
access that monitoring system. Contractor officials stated that plans were
underway to configure the unencrypted communications system to have
role-based passwords, which assigns the same password to a group of users with
the same level of access to the system. An MDA official stated that the
reconfiguration to the passwords will not be implemented until March 2006. DoD
policy does not allow for individual or role-based passwords, even when the
configuration of the system provides protection against unauthorized access. It is
especially important that MDA officials implement consistent password controls
that comply with DoD Instruction 8500.2 because, according to those officials,
the greatest risk to the GCN system was the insider threat.

       DoD Instruction 8500.2 also requires the implementation of a
comprehensive account management process to ensure that only authorized users
gain access to workstations, applications, and networks and that individual
accounts designated as inactive, suspended, or terminated are promptly
deactivated. Contractor officials did not implement a plan or prepare procedures
to promptly deactivate inactive, suspended, or terminated accounts. Contractor


                                      7
           officials stated that no user had an inactive, suspended, or terminated account as
           of July 2005; therefore, the contractor did not believe they needed to implement
           procedures for the deactivation of accounts. However, in November 2005,
           contracting officials terminated two unnecessary accounts for users who no longer
           required access to the GCN. MDA officials should require the contractor to
           immediately prepare and implement account management procedures to include
           deactivation of inactive, suspended, or terminated accounts.

                   User Account Request Forms. DoD Instruction 8500.2 requires that the
           IA Officer ensure that users have the requisite security clearances and supervisory
           need-to-know authorization and are made aware of their IA responsibilities before
           being granted access to any DoD information system. However, the initial GCN
           IA Officer6 was not appointed until June 2005, almost a year after the GCN
           became operational.7 The procedures used by contractor officials to control and
           grant access to the GCN required that the user complete an account request form
           that included the:

                   •    user request for access;

                   •    type of user access being requested;

                   •    supervisor approval and signature that the user had a valid
                        “need-to-know;” and

                   •    GCN security manager certification that the user had the requisite
                        security clearance needed for the system.
                    We reviewed the user account request forms for all GCN users. As of
           July 2005, there were 22 user accounts for the GCN. The GCN security manager had
           not signed any of those forms verifying that a user had the required security clearance
           for the GCN until July 2005, approximately one year after the GCN became
           operational. Additionally, contractors processing those user account request forms
           stated that they did not include the actual date a user was granted access to the GCN;
           instead, the contractors used the date the user completed the form. Additionally, the
           GCN procedures used to control and grant access to the encrypted
           communications and monitoring systems did not require that the user account
           request form require the IA Officer to certify that a user had received
           IA awareness training prior to being granted access to the GCN. Also, procedures
           to control and grant access to the unencrypted systems were not prepared.
           Contractor officials stated they would update the user account request form to
           include a section for the IA Officer to certify in writing that he or she had, in fact,
           verified the user’s completion of the IA awareness training.

                    In November 2005, contractor officials implemented the revised user
           account request form and required GCN users to complete that form. However,
           we identified problems with the content and completion of the revised forms.
           First, the system administrator responsible for creating accounts on the GCN
6
    The IA Officers appointed for the GCN are contractor employees of MDA.
7
In late 2004, the U.S. fielded an initial Ballistic Missile Defense System that can be used for limited
defense operations.



                                                      8
created his own account and granted himself all special access requirements
allowed for the GCN; however, we could not determine whether those access
requirements were appropriate. Second, the revised forms were not completed by
the unencrypted communications and monitoring systems users. Third, the
IA Officer and security manager at one operating location certified IA training
requirements and security clearances on the user account access forms for a
location they were not responsible for. Fourth, two accounts were still active
when those users were no longer at that operating location. Lastly, the security
manager certified users’ clearances a day after our receipt of the revised forms.
MDA officials should require the contractor to update and prepare procedures that
require the user account request form to include the date users are granted initial
access to the system in order to track that annual IA refresher training is provided
and require the IA Officer to certify by initialing the form that the:

       •   user completed the IA awareness training;
       •   supervisor verified the user’s role and need-to-know; and
       •   security manager certified that the user holds a valid and appropriate
           clearance.

MDA officials should also reconcile all active user accounts by operating location
to ensure that access is still required. Additionally, MDA officials should revise
the user account request form to include the initial date a user was granted access
to the GCN and include a section on the form for the IA Officer to initial that the
form contains all required signatures and is complete and accurate. Further,
MDA officials should review all user accounts to ensure each user was granted
the appropriate level of access and ensure that no user can authorize their own
account in the system without validation by an independent party that the access
requirements granted were appropriate.
Contingency and Incident Response Planning. GMD officials did not implement
the DoD Instruction 8500.2 IA controls for contingency and incident response
planning.

        Contingency Plan. DoD Instruction 8500.2 requires preparation of a
disaster plan that provides for the smooth transfer of all mission and
business-essential functions to an alternate site with little or no loss of operational
continuity. A system’s contingency plan may be included as part of the system’s
disaster recovery procedures. GMD officials stated that they had not prepared a
formal contingency plan for the GCN because redundant operations were built
into the configuration of the system that would mitigate most interruptions. DoD
Instruction 8500.2 requires formal documentation of the essential functions for
priority restoration, the identification of an alternate location that permits the
restoration of those essential functions, and implementation of recovery
procedures to ensure recovery is done in a secure and verifiable manner.
Regardless that the design of the GCN may reduce most interruptions, GMD
officials should document those procedures and operations that will prevent the
GCN from potential loss of information or operations should an incident occur.




                                       9
             Incident Response Plan. Contractor officials did not prepare a formal
     incident response plan for the GCN system. Contractor officials stated that they
     report on equipment and communications outages; however, they do not have a
     formal plan to report security incidents or violations. DoD Instruction 8500.2
     requires that an incident response plan exist that identifies the responsible
     computer network defense service provider, defines reportable incidents, outlines
     a standard operating procedure for incident response, provides for user training,
     and establishes an incident response team. MDA officials should require the
     contractor to implement a formal incident response plan to ensure employees are
     made aware of the incident response procedures to alert the appropriate parties if
     an incident occurs.


Plan of Action and Milestones
     MDA officials did not implement a formal plan that would assist in identifying,
     assessing, prioritizing, and monitoring the progress of corrective efforts for security
     weaknesses identified for the GCN, which operated under an interim authority to
     operate. According to DoD 8510.1-M, an interim authority to operate is issued when
     the system does not meet the system security requirements but the mission criticality
     mandates that it become operational. The Assistant Secretary of Defense for
     Networks and Information Integration/Chief Information Officer Memorandum,
     “Department of Defense (DoD) Federal Information Security Management Act
     (FISMA) Guidance for Fiscal Year 2005 (FY05),” April 18, 2005, required that DoD
     Components prepare and submit a POA&M that identifies the solution, schedule,
     security actions, and milestones necessary for mitigating identified security
     weaknesses. It is especially important to prepare a POA&M for systems operating
     under an interim authority to operate.

     Although contractor officials routinely assessed the GCN to identify IA security
     weaknesses, the developing contractor and the independent assessment team
     contractor maintained the results of those assessments separately. The MDA
     program office for GMD did not prepare a POA&M that readily identified the
     weaknesses, the tasks and resources needed to mitigate the weaknesses, the
     milestones, and scheduled completion dates for the milestones. Although aspects of a
     POA&M were maintained separately and weaknesses tracked through mitigation
     schedules, the information was not maintained centrally by the MDA program office
     for GMD. Subsequent to our review, MDA officials consolidated the IA weaknesses
     of the developing contractor and the independent assessment team contractor, and in
     September 2005, provided a plan that met the requirements of a POA&M. MDA
     officials should conduct quarterly reviews and updates of the POA&M in order to
     measure and monitor the progress of efforts needed to mitigate the security
     weaknesses identified for the GCN, including all weaknesses identified by this audit.
     We commend management for taking initial corrective action on this issue.




                                           10
Management Controls

            MDA officials did not implement IA controls and prepare required documents
            because they did not conduct adequate oversight of the GCN IA program, update the
            development contract to adhere to DoD policy, or assign IA roles and responsibilities
            for the GCN development process.

            Contractor officials stated that because the GCN had been in development for
            approximately five years, it would have been too costly to modify the development
            contract to implement the IA controls required in DoD Instruction 8500.2; however,
            security requirements cannot simply be waived based on cost. MDA Policy
            Memorandum, “Mission Assurance Category (MAC) Levels for Missile Defense
            Agency (MDA) Systems and Networks,” August 20, 2004, required that MDA
            systems and networks not accredited in accordance with DoD Instruction 8500.2
            be approved in writing from the MDA Designated Approving Authority;
            however, no written approval was obtained. Additionally, the MDA CIO stated
            that although the contractor had not implemented all the IA controls required by DoD
            Instruction 8500.2, the standards used, DoD 5200.28-STD, met approximately
            85 percent of those IA controls. However, that standard is twenty years old and does
            not include requirements for the current IA controls of DoD Instruction 8500.2.
            Also, the GCN program office was not involved in the preparation of the available
            security documentation.

            MDA officials had not prepared IA policies for incident response and recovery,
            passwords, configuration change, IA training, and audit management. MDA officials
            only first entered into a contract for the development of those IA policies in
            June 2005, after an assessment of their IA program conducted by the National
            Security Agency. GMD program and contractor officials stated that at the time, IA
            had not been emphasized by MDA and that they were not aware of their
            IA responsibilities. Additionally, an IA Manager8 responsible for oversight of the
            GMD system’s IA program was not appointed until July 2005 and the IA Officers
            were not appointed until the last six months of the five year development of the GCN.


Conclusion
            MDA and contractor officials may not be able to reduce the risk and magnitude of
            harm resulting from misuse or unauthorized access to or modification of the
            information of the GCN, and ensure the continuity of the system in the event of an
            interruption. Additionally, the MDA CIO and Designated Approving Authority may
            not be able to make appropriate management-level decisions relating to the security
            of the GCN if contingency and incident response plans are not prepared or tested and
            the system security plan is not prepared and updated on a recurring basis. MDA and
            contractor officials must immediately comply with all Federal, DoD, and MDA
8
    The IA Manager, an MDA government employee, is responsible for developing and maintaining the GMD
     IA program to include identifying the IA objectives and policies, ensure the development and
     maintenance of IA certification documents, maintain a repository of IA certification and accreditation
     documents, ensure that IA Officers are appointed in writing and provide oversight to ensure that they are
     following IA policies, and ensure that IA Officers receive necessary IA training.



                                                       11
    system security requirements for GCN, emphasize the importance of IA to MDA and
    contractor employees, conduct timely IA awareness training of GCN users, conduct
    reviews of unauthorized access, and implement password procedures and controls for
    user access so that the confidentiality, integrity, and availability of the information in
    the GCN is not compromised and is protected to the highest level possible.


Recommendations, Management Comments, and
  Audit Response
    Revised Recommendation. We revised Recommendation 1. to request that MDA
    identify the primary user representative for the GCN, rather than for the GMD, so
    that the GCN meets the user’s operational need.
    We recommend that the Director, Missile Defense Agency ensure that the Chief
    Information Officer, Missile Defense Agency:

    1. Completes the System Security Authorization Agreement process for the
    Ground-Based Midcourse Defense Communications Network in full
    compliance with Office of Management and Budget Circular A-130,
    “Management of Federal Information Resources,” November 30, 2000, and
    DoD 8510.1-M, “Department of Defense Information Technology Security
    Certification and Accreditation Process (DITSCAP) Application Manual,”
    July 31, 2000, by April 1, 2006 and identify the primary user representative
    for the Ground-Based Midcourse Defense Communications Network to
    ensure that the network will meet the user’s operational need; will meet the
    availability and integrity requirements; and has a realistic security policy
    that can be maintained in the operational environment.

    Management Comments. The Deputy Director, MDA, responding for the
    Director, MDA, concurred that a single SSAA would be prepared for the GCN,
    stating that the single SSAA would be staffed for signature with the GMD
    Program Director. However, the Deputy Director nonconcurred with identifying
    the primary user representative for the GCN stating that a user representative had
    authorized the GMD and the Ballistic Missile Defense System SSAAs.

    Audit Response. The Deputy Director, MDA, responding for the Director,
    MDA, comments were partially responsive. We revised this recommendation and
    request that MDA identify the primary user representative for the GCN, rather
    than for the GMD, so that the GCN meets the user’s operational need.

    2. Immediately implements all information assurance controls required in
    DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
    February 6, 2003, for Mission Assurance Category I and classified systems.
    Specifically,

         a. Prepare and implement procedures for the Ground-Based
    Midcourse Defense Communications Network to:

                    (1) Deactivate inactive, suspended, and terminated accounts.


                                           12
               (2) Mandate that the information assurance officer track the
date a user is granted access to the system, certify the user completed
information assurance awareness training, and verify that the user has a
valid and appropriate security clearance.

             (3) Require that an independent party validate in the
Ground-Based Midcourse Defense Communications Network that access
requirements granted were appropriate when a user creates their own
account.

        Management Comments. The Deputy Director, MDA, responding for
the Director, MDA, concurred stating that the prime contractor implemented the
process to deactivate inactive, suspended, and terminated accounts and that since
the establishment of the IA Officers, a common process and forms for granting
access was developed, audited, and verified.

        Audit Response. The Deputy Director, MDA, responding for the
Director, MDA, comments were responsive to the recommendation; therefore, no
further comments are required.

      b. Update the Ground-Based Midcourse Defense Communications
Network configuration to include:

            (1) Automated monitoring of the unencrypted and encrypted
communications and monitoring systems; and

            (2) Individual user passwords to access the unencrypted
communications system.

        Management Comments. The Deputy Director, MDA, responding for
the Director, MDA, concurred stating that current equipment is not capable of
performing automated audit log assessment. Until that capability is available
manual reviews are conducted weekly. Additionally, the Deputy Director stated
that shared passwords have been eliminated with the release of the 4B.1 software
build. However, on February 1, 2006, a contracting official stated that the
4B.1 software build would not be released until May 2006.

        Audit Response. The Deputy Director, MDA, responding for the
Director, MDA, comments were nonresponsive. The Deputy Director did not
state whether the automated audit log capability would be implemented on the
GCN. While we acknowledge that management has implemented the requirement
for weekly manual reviews, management must ensure that an automated audit log
capability is implemented in the system. Additionally, as stated in this report,
plans were underway to configure the unencrypted communications system
during the 4B.1 software build to have role-based passwords, which would assign
the same password to a group of users with the same level of access to the system,
rather than individual passwords. However, DoD policy does not allow for
individual or role-based passwords. Further, management comments were
inconsistent as to when the 4B.1 software build would be implemented. We
request that management provide additional comments to identify when



                                    13
individual passwords, not role-based passwords, would be implemented for the
unencrypted communications system of the GCN.

       c. Prepare a contingency plan for the Ground-Based Midcourse
Defense Communications Network that meets the requirements of DoD
Instruction 8500.2, “Information Assurance (IA) Implementation,”
February 6, 2003, and the National Institute of Standards and Technology
Special Publication 800-34, “Contingency Planning Guide for Information
Technology Systems,” June 2002.

        Management Comments. The Deputy Director, MDA, responding for
the Director, MDA, concurred stating that a pending engineer change proposal
statement of work will address the IA requirements. The Deputy Director also
stated that contingency plans were present at each site.

        Audit Response. The Deputy Director, MDA, responding for the
Director, MDA, comments were partially responsive. Although the Deputy
Director stated that plans were underway to prepare a contingency plan, he did
not state whether it would be prepared in accordance with DoD Instruction 8500.2
and National Institute of Standards and Technology Special Publication 800-34.
Additionally, MDA and contracting officials at the sites told the audit team that
there were no contingency plans in place. We request that management provide
additional comments to identify whether the contingency plan will be prepared in
accordance with DoD Instruction 8500.2 and National Institute of Standards and
Technology Special Publication 800-34.

       d. Prepare an incident response plan for the Ground-Based
Midcourse Defense Communications Network that meets the requirements of
DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
February 6, 2003, and the National Institute of Standards and Technology
Special Publication 800-61, “Computer Security Incident Handling Guide,”
January 2004.

        Management Comments. The Deputy Director, MDA, responding for
the Director, MDA, concurred stating that a pending engineer change proposal
statement of work will address the IA requirements. The Deputy Director also
stated that incident response plans were present at each site.

        Audit Response. The Deputy Director, MDA, responding for the
Director, MDA, comments were partially responsive. Although the Deputy
Director stated that plans were underway to prepare an incident response plan, he
did not state whether it would be prepared in accordance with DoD
Instruction 8500.2 and National Institute of Standards and Technology Special
Publication 800-61. Additionally, MDA and contracting officials at the sites told
the audit team that there were no incident response plans in place. We request
that management provide additional comments to identify whether the incident
response plan will be prepared in accordance with DoD Instruction 8500.2 and
National Institute of Standards and Technology Special Publication 800-61.

3. Maintains the information assurance training program for all Missile
Defense Agency and contractor personnel associated with the Ground-Based


                                    14
Midcourse Defense Communications Network in accordance with DoD
Directive 8570.1, “Information Assurance Training, Certification, and
Workforce Management,” August 15, 2004.

Management Comments. The Deputy Director, MDA, responding for the
Director, MDA, concurred stating that the training process is uniform across all
the components and contractors.

Audit Response. The Deputy Director, MDA, responding for the Director,
MDA, comments were responsive to the recommendation; therefore, no further
comments are required.

4. Updates the Plan of Action and Milestones to include all security
weaknesses identified for the Ground-Based Midcourse Defense
Communications Network, including all weaknesses identified in this review.

Management Comments. The Deputy Director, MDA, responding for the
Director, MDA, concurred stating that the POA&M will be reviewed quarterly to
update and include new actions and milestones, such as the DoD, Office of the
Inspector General findings.

Audit Response. The Deputy Director, MDA, responding for the Director,
MDA, comments were responsive to the recommendation; therefore, no further
comments are required.

5. Reports in the Missile Defense Agency’s Annual Statement of Assurance
the information assurance weaknesses identified in this report for the
Ground-Based Midcourse Defense Communications Network.

Management Comments. The Deputy Director, MDA, responding for the
Director, MDA, concurred stating that a change to the MDA Annual Statement of
Assurance will be considered at the annual update.

Audit Response. The Deputy Director, MDA, responding for the Director,
MDA, comments were nonresponsive. We request that management reconsider
their position and include all the information assurance weaknesses identified in
this report in the MDA Annual Statement of Assurance to ensure full disclosure
of system IA weaknesses and management efforts to address those weaknesses.




                                    15
Appendix A. Scope and Methodology
            We queried the DoD Information Technology Registry in March 2005 to identify the
            MDA information systems designated as mission critical.* Each system identified as
            mission critical was also designated as a MAC I system. We selected the GCN, a
            mission critical MAC I system, for review. We assessed the adequacy of
            documentation based on select operational or IA controls designated for the GCN. In
            DoD guidance, operational controls are included in the definition of IA controls so
            our report uses the term IA and operational controls interchangeably. We evaluated
            select IA controls relating to IA awareness training, user access controls, and
            contingency planning for the GCN system based on the requirements of DoD
            Instruction 8500.2, DoD 8510.1-M, DoD Directive 8570.1, DoD 5200.28-STD, OMB
            Memorandum 02-01, OMB Circular A-130, and MDA Policy Memoranda. The
            policy and guidance reviewed were dated from December 1985 through April 2005.

            We reviewed the following GCN documents: the System Security Authorization
            Agreements, the Interim Authority to Operate Memoranda, appointment letters,
            IA awareness and role-based training certificates, training plans, audit logs, user
            account request forms, user access listings, configuration management plans, and risk
            management plans. We reviewed the relevant documents dated from May 2004
            through November 2005.

            We visited the GMD Joint Program Office in Huntsville, Alabama, and the Joint
            National Integration Center, in Colorado Springs, Colorado. Although we did not
            visit Ft. Greely, Alaska, the GMD Joint Program Office provided the IA policies
            and procedures (which were the same as the Joint National Integration Center)
            and the user-specific documents for that location.

            We conducted interviews with the MDA CIO, the GMD Deputy Designated
            Approving Authority, the GMD Certifying Authority, the GMD IA Manager, GMD
            IA Officers, MDA officials responsible for updating the Information Technology
            Registry, GCN privileged users, the contractors developing the GCN, and the
            independent verification and validation contractor team.

            We performed this audit from April 2005 to December 2005 in accordance with
            generally accepted government auditing standards.

            Use of Computer-Processed Data. We did not use computer-processed data to
            perform this audit.

            Government Accountability Office High-Risk Area. The Government
            Accountability Office (GAO) has identified several high-risk areas in DoD. This
            report provides coverage of the Protecting the Federal Government’s Information-
            Sharing Mechanisms and the Nation’s Critical Infrastructures high risk area.



*
    Mission Critical systems are those systems that the loss of which would cause the stoppage of warfighter
    operations or direct mission support of warfighter operations.



                                                       16
Appendix B. Prior Coverage
      During the last 5 years, the GAO and the DoD Inspector General (IG) issued
      10 reports that discuss the reliability of DoD information technology budget
      submissions. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD Inspector General reports can be accessed at
      http://www.dodig.mil/audit/reports.


GAO
      GAO Report No. GAO-05-552, “Weaknesses Persist at Federal Agencies Despite
      Progress Made in Implementing Related Statutory Requirements,” July 15, 2005

      GAO Report No. GAO-05-381, “DoD Business System Modernization: Billions
      Being Invested Without Adequate Oversight,” April 29, 2005

      GAO Report No. GAO-04-858, “Defense Acquisitions: The Global Information Grid
      and Challenges Facing Its Implementation,” July 28, 2004

      GAO Report No. GAO-04-823, “Federal Chief Information Officers:
      Responsibilities, Reporting Relationships, Tenure, and Challenges,” July 21, 2004

      GAO Report No. GAO-04-615, “DoD Business System Modernization: Billions
      Continue to Be Invested with Inadequate Management Oversight and
      Accountability,” May 27, 2004


DoD IG

      DoD IG Report No. D-2005-099, “Status of Selected DoD Policy on Information
      Technology Governance,” August 19, 2005

      DoD IG Report No. D-2005-094, “Proposed DoD Information Assurance
      Certification and Accreditation Process,” July 21, 2005

      DoD IG Report No. D-2005-054, “DoD Information Technology Security
      Certification and Accreditation Process,” April 28, 2005

      DoD IG Report No. D-2005-029, “Management of Information Technology
      Resources Within DoD,” January 27, 2005

      DoD IG Report No. D-2005-023, “Assessment of DoD Plan of Action and Milestone
      Process,” December 13, 2004




                                           17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Business Transformation Agency
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Assistant Secretary of Defense for Health Affairs/Chief Information Officer
Assistant Secretary of Defense for Intelligence Oversight/Chief Information Officer
Chief Information Officer, Office of the Secretary of Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Department of Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of the Navy
Chief Information Officer, U.S. Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force




                                             18
Unified Commands
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Joint Forces Command
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. Southern Command
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Strategic Command
Chief Information Officer, U.S. Transportation Command

Other Defense Organizations
Director, Missile Defense Agency
Chief Information Officer, American Forces Information Service
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Finance and Accounting Agency
Chief Information Officer, Defense Human Resource Activity
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Department of Defense Education Activity
Chief Information Officer, Department of Defense Inspector General
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, DoD Test Resources Management Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, TRICARE Management Agency
Chief Information Officer, U.S. Mission North Atlantic Treaty Organization
Chief Information Officer, Washington Headquarters Service


Non-Defense Federal Organization
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
   Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
   Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and
   the Census, Committee on Government Reform




                                           20
Missile Defense Agency Comments




                     21
22
23
24
25
Final Report
 Reference




Revised
Recommen-
dation 1.




               26
27
28
29
30
31
32
33
34
35
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Kathryn M. Truex
Karen J. Lamar
George A. Leighton
Courtney E. Woodruff
Tina N. Brunetti
Dawn M. Russell
